<html>
<title> - LIBRARY OF CONGRESS: ENSURING CONTINUITY AND EFFICIENCY DURING LEADERSHIP TRANSITIONS</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]






    LIBRARY OF CONGRESS: ENSURING CONTINUITY AND EFFICIENCY DURING 
                         LEADERSHIP TRANSITIONS

=======================================================================

                                HEARING

                               before the

                       SUBCOMMITTEE ON OVERSIGHT

                                 of the

                           COMMITTEE ON HOUSE
                             ADMINISTRATION
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                 Held in Washington, DC, April 18, 2012

                               __________

      Printed for the use of the Committee on House Administration




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>




                       Available on the Internet:
                             www.fdsys.gov



                                _____

                  U.S. GOVERNMENT PRINTING OFFICE

74-234                    WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001












                   COMMITTEE ON HOUSE ADMINISTRATION

                DANIEL E. LUNGREN, California, Chairman
GREGG HARPER, Mississippi            ROBERT A. BRADY, Pennsylvania,
PHIL GINGREY, M.D., Georgia            Ranking Minority Member
AARON SCHOCK, Illinois               ZOE LOFGREN, California
TODD ROKITA, Indiana                 CHARLES A. GONZALEZ, Texas
RICHARD B. NUGENT, Florida

                           Professional Staff

             Philip Kiko, Staff Director & General Counsel
                  Jamie Fleet, Minority Staff Director
                                 ------                                

                       Subcommittee on Oversight

                 PHIL GINGREY, M.D., Georgia, Chairman
AARON SCHOCK, Illinois               ZOE LOFGREN, California
RICHARD B. NUGENT, Florida           CHARLES A. GONZALEZ, Texas
TODD ROKITA, Indiana

 
    LIBRARY OF CONGRESS: ENSURING CONTINUITY AND EFFICIENCY DURING 
                         LEADERSHIP TRANSITIONS

                              ----------                              


                       WEDNESDAY, APRIL 18, 2012

                  House of Representatives,
                         Subcommittee on Oversight,
                         Committee on House Administration,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:12 a.m., in 
Room 1310, Longworth House Office Building, Hon. Phil Gingrey 
[chairman of the subcommittee] presiding.
    Present: Representatives Gingrey, Rokita, Nugent, and 
Lofgren.
    Staff Present: Peter Schalestock, Deputy General Counsel; 
Kimani Little, Parliamentarian; Joe Wallace, Legislative Clerk; 
Yael Barash, Assistant Legislative Clerk; Salley Wood, 
Communications Director; Linda Ulrich, Director of Oversight; 
Dominic Storelli, Oversight Staff; Bob Sensenbrenner, Elections 
Counsel; Jamie Fleet, Minority Staff Director; Matt Pinkus, 
Minority Senior Policy Analyst; Matt Defreitas, Minority 
Professional Staff; Mike Harrison, Minority Professional Staff; 
and Greg Abbott, Minority Professional Staff.
    Mr. Gingrey. I now call to order the Committee on House 
Administration's Subcommittee on Oversight for today's hearing 
on the Library of Congress.
    The hearing record will remain open for 5 legislative days 
so that Members may submit any materials that they wish to be 
included therein.
    Mr. Gingrey. A quorum is present, so we may proceed. The 
witnesses may take their seats. Thank you.
    Due to some technical difficulties, we are not able to 
broadcast today's hearing. We are hoping that that will be 
corrected before the hearing is over.
    Is it--are we up and running now?
    Okay. Forget this note. We are live.
    Established in 1800 to serve Congress, the Library is the 
world's largest, with over 150 million items in its 
collections. In fiscal year 2011 alone, it received 763,000 
congressional reference requests and delivered to Congress more 
than 1 million research products.
    The four service units before us today represent arguably 
the core of the Library. The Law Library; the Congressional 
Research Service, CRS; the Copyright Office; and Library 
Services fulfill vital needs and services to this Congress and 
to the American people.
    The Law Library ensures Congress has the necessary 
documents for domestic and international legal sources that it 
needs for its deliberations. The Congressional Research Service 
has the important responsibility of assisting Congress in 
researching the legislative issues before it in a nonpartisan 
and objective fashion.
    The Copyright Office, responsible for our national 
copyright system, processes approximately 670,000 registration 
applications annually. It is also responsible for adjudicating 
copyright disputes, making its services indispensable to United 
States industries relying on the protection of their 
intellectual property.
    Library Services oversees the backbone of the Library. It 
is charged with maintaining the world's largest collection. 
This unit is responsible for acquisitions and all cataloguing.
    However, in this fiscal environment, the Library has seen 
its budget reduced. Like the rest of this country and this 
Congress, it has been forced to increase operational efficiency 
while maintaining the ability to serve its core function and 
its clients.
    Today, we look forward to hearing from these four service 
unit leaders, all of whom arrived recently in their positions. 
These four units of the Library comprise almost 70 percent of 
the Library's budget. Thus, it will be important to hear from 
our witnesses how they are managing these resources, how they 
are finding greater efficiencies, and how they will continue to 
meet their collective and individual missions in the future.
    I want to thank each of my colleagues for being here today.
    I would now like to recognize the ranking member of the 
subcommittee, Congresswoman Zoe Lofgren from California, for 
the purpose of providing an opening statement.
    Ranking Member Lofgren.
    Ms. Lofgren. Thank you, Chairman Gingrey. And I would ask 
unanimous consent that my full statement be made a part of the 
record.
    Mr. Gingrey. Without objection.
    Ms. Lofgren. I would simply say that, of course, we all 
appreciate the work that the employees of the Library of 
Congress do every day on behalf not only of the Congress but of 
the American people.
    I think this oversight hearing is an important one. As we 
know, Dr. Billington has been the Librarian since 1987. He has 
outlasted four U.S. Presidents. And there have been a high 
number of turnovers, as you have mentioned, at the division 
level. With so many divisions in a state of transition, I think 
it is a good time for us to check in to learn the vision of 
each of them and to make sure that they are in accord with the 
vision that the Congress, on a bipartisan basis, has on behalf 
of the Nation.
    So I look forward to the hearing, and thank you for holding 
this. I think it is an important one. And it is the first one 
we have had in all the years I have been on the committee.
    So I yield back.
    Mr. Gingrey. I thank the ranking member.
    Mr. Gingrey. Any other members of the committee have an 
opening statement?
    Okay, I would like now to introduce our witnesses.
    David Mao became the 23rd Law Librarian of Congress on 
January the 4th this year. Before being appointed by Dr. 
Billington, Librarian Mao had been the Deputy Law Librarian 
since June of 2010. Prior to coming to the Law Library, Mr. Mao 
had a 5-year tenure in the Congressional Research Service. He 
held positions at Georgetown University and practiced law. He 
earned his library degree from the Catholic University of 
America.
    Dr. Mary Mazanec was appointed Director of the 
Congressional Research Service on December the 5th, 2011. Dr. 
Mazanec had been Acting Director of CRS and has advanced 
degrees in law and medicine.
    Congratulations.
    From 2002 to 2010, she worked with the United States 
Department of Health and Human Services, HHS, where she served 
most recently as a Deputy Assistant Secretary and director of 
the Office of Medicine, Science, and Public Health. Dr. Mazanec 
has been a Robert Wood Johnson Health Policy Fellow and a 
senior policy analyst at the Medicare Payment Advisory 
Commission, MedPAC. She received her doctor of medicine from 
Case Western Reserve University Medical School and a juris 
doctorate from Case Western Reserve University Law School.
    Maria Pallante was appointed the 12th Register of 
Copyrights and Director of the United States Copyright Office 
last June. Register Pallante has held several key positions 
within the Copyright Office. She has been Acting Register, the 
Associate Register of Policy and International Affairs, deputy 
general counsel, and policy advisor. In addition, she was 
intellectual property counsel and director of the licensing 
group at the Guggenheim Museums.
    Last but not least, Roberta Shaffer is the Associate 
Librarian for Library Services. A former Fulbright Senior 
Scholar, Ms. Shaffer has had a distinguished career as a 
practicing librarian and as a library science educator. Prior 
to being appointed, Ms. Shaffer served as Mr. Mao's predecessor 
as the 22nd Law Librarian. Associate Librarian Shaffer has also 
been the executive director of the Library's Federal Library 
and Information Network.
    We thank you all for being here today. The committee has 
received your written testimonies, and at the appropriate time, 
I will recognize each of you for 5 minutes to present a summary 
of that submission.
    To help you keep time, we have a timing device near the 
witness table. I don't think I have yet figured out quite how 
to use it, so I will try to be rather generous in the 5 
minutes. The device is supposed to emit a green light for 4 
minutes, and then it turns yellow for 1 minute. When the light 
turns red, it means that your time has expired--the 
gentlewoman's or the gentleman's time has expired. I have just 
got kind of a light gavel. I have never used it before, so we 
will be okay with you.
    Law Librarian Mao, we will start with you, and would you 
please proceed with your testimony.

   STATEMENTS OF DAVID S. MAO, LAW LIBRARIAN, LAW LIBRARY OF 
  CONGRESS; MARY B. MAZANEC, DIRECTOR, CONGRESSIONAL RESEARCH 
   SERVICE; MARIA A. PALLANTE, REGISTER OF COPYRIGHTS, U.S. 
 COPYRIGHT OFFICE; ROBERTA I. SHAFFER, ASSOCIATE LIBRARIAN FOR 
             LIBRARY SERVICES, LIBRARY OF CONGRESS

                   STATEMENT OF DAVID S. MAO

    Mr. Mao. Thank you.
    Mr. Chairman, Ranking Member Lofgren, and members of the 
subcommittee, thank you for this opportunity to speak about 
leadership transition in the Law Library of Congress.
    Although only in the position since January, I am nearing 7 
years of service in the Library of Congress and have seen a 
reenergized and revitalized Law Library emerge under the 
direction of my predecessor, Roberta Shaffer. I have assumed 
the leadership of a service unit with unique collections and 
expertise that not only plays a vital role in supporting the 
work of Congress but also advances the knowledge of laws and 
legal information worldwide.
    The highest priority of the Law Library is to provide the 
Congress with timely, authoritative, and confidential foreign 
legal analysis and information. For example, in 2011, the Law 
Library staff prepared many legal research reports, special 
studies, and memoranda in response to congressional inquiries. 
More specifically, foreign law specialists and analysts 
provided foreign and comparative law reports related to a range 
of current U.S. legislative issues, including banking, 
citizenship, immigration, taxation, and terrorism.
    Current priorities during this fiscal year include working 
with other organizations within the Library to design the next-
generation Legislative Information System. Additionally, the 
Law Library is collaborating with other parts of the Library 
and external entities regarding the digitization of historical 
legislative documents.
    The Law Library's Reading Room is currently undergoing a 
renovation that will include technologies so that clients may 
better access virtual collections and utilize improved study 
space to access physical collections. In the renovated Reading 
Room, Law Library staff will be able to train Members and staff 
on THOMAS, give topical seminars and offer briefings on a wide 
range of foreign legal issues.
    Later this year, the Law Library will launch law.gov as it 
pursues a long-term strategic plan aligned with Library of 
Congress-wide digital initiatives which will afford Congress 
and other constituents the benefits of more timely, targeted, 
and complete legal knowledge.
    Going forward, in fiscal year 2013, the Law Library will 
continue to classify the 800,000 volumes to Class K to the 
extent the budget will allow.
    Working within the broader Library of Congress Web 
enhancement process, the Law Library will continue to establish 
law.gov as the vehicle for providing access to digital legal 
information. Together with other library service units, the Law 
Library also will continue to coordinate training that the Law 
Library provides to the Congress and staff.
    The Law Library's priorities are not without fiscal 
constraints and challenges, however. Reduction in the Library 
of Congress budget hampers creation of a workforce with the 
skills necessary to implement the envisioned future mission of 
the Law Library. Because the Law Library relies heavily on 
contractors, a reduced budget means bids for contractual 
services with decreased labor hours, which lead to lower 
collection maintenance activity levels and a decreased ability 
to preserve a backlog of official foreign nations' laws, 
regulations, and legal information published exclusively in 
newspaper form.
    The Law Library also lacks storage space for its vast 
collections, which significantly impedes the Law Library's 
ability to maintain a comprehensive and current legal 
collection. Moreover, the Law Library is currently able to 
house less than 50 percent of its rare items in storage 
conditions that meet Library of Congress security requirements. 
To provide proper security as well as environmental controls 
for this material, a new vault for Law Library rare materials 
must be constructed in the Madison Building.
    Despite the challenges that it faces, the Law Library will 
continue to provide the Congress with accurate, authoritative, 
and timely foreign legal analysis and will continue to acquire, 
preserve, and make accessible world-class legal collections. In 
a budget-constrained environment, the Law Library will leverage 
all Library of Congress resources and collaborate both 
internally and externally to ensure that it maintains the 
highest-quality staff and delivers products and services 
efficiently and in a cost-efficient manner. The Law Library of 
Congress is committed to maintaining its unique role as a 
leader for the world's legal and information communities.
    Mr. Chairman and members of the subcommittee, I thank you 
again for the opportunity to testify today.
    Mr. Gingrey. Thank you, Mr. Mao.
    [The statement of Mr. Mao follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Gingrey. Dr. Mazanec.

                  STATEMENT OF MARY B. MAZANEC

    Dr. Mazanec. Mr. Chairman, Ranking Member Lofgren, and 
members of the subcommittee, I, too, want to thank you for this 
opportunity to appear before you today to discuss the 
Congressional Research Service of the Library of Congress.
    I am honored to have been appointed the CRS Director by Dr. 
Billington last December. My transition to the Director of CRS 
has been seamless, due in large part to the excellent, 
dedicated, and talented staff working at all levels throughout 
the Service.
    My vision is that CRS remains Congress' primary source for 
the analysis and information that it needs to perform its 
legislative functions. As you recall, CRS's work is driven by 
the core values of timeliness, authoritativeness, objectivity, 
balance, confidentiality, and nonpartisanship.
    CRS recently completed its annual legislative planning 
process, identifying over 160 issues before Congress and 
organizing its product line and its Web resources around those 
issues. We have also met with the leadership offices to ensure 
that CRS is well positioned to support Congress' legislative 
agenda.
    Additionally, in conjunction with this committee, we are 
beginning our planning for the CRS Seminar for New Members of 
the 113th Congress. The last seminar was attended by a record 
number of new House Members, and we expect another productive 
exchange with the freshman class of the next Congress.
    Looking back over last year, in fiscal year 2011, CRS 
completed more than 760,000 responses and services for Members 
and committees. This number includes analysis and information 
requests, product requests, electronic services, and seminars.
    Since becoming Director, I have made it one of my top 
priorities to meet personally with Members, committees, and 
senior congressional staff. The purpose of these meetings is to 
elicit feedback and suggestions about how we are serving the 
Congress and how we can do our job better and more efficiently. 
Since the beginning of the 112th Congress, I have held meetings 
with nearly 30 Members and 85 senior staffers. The meetings 
have reaffirmed the findings of the 2010 Customer Satisfaction 
Study, which found that a majority of CRS clients are very 
satisfied with our products and the services that we provide. 
But there is always room for improvement, and we can do better.
    Since becoming Director, I have also sought the input of 
CRS staff at all levels, initiating a series of open staff 
meetings and brown bag lunches, inviting staff to raise 
questions and concerns and to brainstorm with me and offer 
ideas about how we can do our work better and more efficiently. 
In addition, on a regular basis I meet with the president of 
the Congressional Research Employees Association.
    Turning to fiscal considerations, I am continuously 
examining our budget priorities, and I have directed my senior 
management team to review our current organization to determine 
where we can continue to achieve efficiencies and synergies 
between offices and divisions.
    CRS is operating at its lowest staff level in more than 3 
decades. As of March 31st, 2012, CRS had 618 employees, a 
decline of 53 persons in the last 2 years. Although this 
decrease in manpower means that the service has limited 
flexibility to develop new analytical capacity in increasingly 
complex areas such as health care, energy development, military 
weaponry, and financial regulation, I am focused on maintaining 
the highest level of service for the Congress. To this end, one 
of my top priorities is to strategically reshape the workforce, 
while maintaining broad analytical capacity. CRS will continue 
to work with its congressional clients to scope out and 
prioritize needs and to meet these needs in a timely manner.
    While we are operating under increased budget pressure, 
especially in technology and research materials, we recognize 
that it is not just our analysis that we provide, but it is 
also how we provide it to a 21st-century Congress. Our 
technology needs to evolve as Congress has evolved. And we are 
committed to making improvements in this area.
    In closing, I want to thank you once again for this 
invitation to appear before you. Together with my colleagues at 
the Library, we are ready to serve the Congress and the 
legislative process, and I look forward to working with you.
    Thank you.
    Mr. Gingrey. Thank you, Dr. Mazanec.
    [The statement of Dr. Mazanec follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Gingrey. Ms. Pallante.

                 STATEMENT OF MARIA A. PALLANTE

    Ms. Pallante. Thank you, Mr. Chairman.
    Mr. Chairman, Ranking Member Lofgren, Mr. Nugent, I also 
want to thank you for the invitation to appear today.
    I also want to apologize for my voice. I was traveling last 
week and unfortunately came back with an ill-timed head cold. 
And----
    Mr. Gingrey. It sounds great. Proceed.
    Ms. Pallante [continuing]. I took a lot of cold medicine, 
so let's see what that does to me.
    I also want to correct a typo in my written statement. It 
states that my predecessor retired on December 31st, 2011, but 
in fact it was 2010.
    At the outset, I would like to say what a tremendous 
privilege it is to serve as the Register of Copyrights at this 
point in time. The registration and the recordation functions 
of the office have become critically important to the public. 
At the same time, the legal framework by which authors create 
and disseminate their works and libraries and members of the 
public access them requires updating for the online 
environment.
    When Dr. Billington appointed me to the position last year, 
I was quite honored by his trust in me and deeply appreciative 
of the opportunity to serve the Library, the Congress, the 
copyright community, and the public. I am joined at the office 
by a very talented staff, many of whom have specialized 
knowledge and training. I respect and admire them for their 
dedication to the Nation.
    I also have tremendous respect for the position that I 
hold, and I am aware of the legacies of those who have served 
as Register before me. Ms. Peters directed the office for 16 
years and served on the staff for more than 40. Other Registers 
have served fewer years but during critical periods of policy 
reform. In fact, every Register since 1897 has had to navigate 
a complex combination of policy and operations issues, and this 
has already proven to be the case for me as well.
    Since my appointment in June, my colleagues and I have been 
extremely busy on two fronts: first, meeting the day-to-day 
demands of our public services and policy duties under the 
statute; and, second, evaluating our core operations in 
preparation for the future.
    The registration and recordation programs of the Copyright 
Office form the largest public database of copyright 
information in the world--information that is helpful to 
commerce, to innovation, and to licensing. That said, unlike 
the patent system, registration in the copyright context is not 
required as a condition of legal protection under the law. It 
is therefore necessary to review the legal incentives that we 
provide to authors to entice them to participate in the system 
and to analyze and properly calibrate the office's fees for 
services so as not to dissuade registration.
    Last October, I released a 2-year plan entitled "Priorities 
and Special Projects of the U.S. Copyright Office." This 
document transparently describes our workload, including trade 
and policy work, and reflects our commitment to prepare for 
future challenges, including in the registration system.
    In addition to our normal workload, we have 10 special 
committees working on issues that are pertinent to the future, 
on which hundreds of employees from across departments are 
working collaboratively. I want to underscore what that really 
means at a staff level. In an environment where people are 
already doing more than their share, I have asked them, as the 
new Register, to do even more. And they have responded with 
enthusiasm and pride. Many of the projects will require a 
multiyear commitment and sustained funding if implemented. 
Others are entrepreneurial and could lead to partnerships with 
the private sector.
    In summary, my vision for the U.S. Copyright Office is to 
position it to be highly efficient and effective over the next 
several decades. To do this, we have five challenges. We must 
first attract and retain a skilled and experienced staff, 
especially in law and information technology. Second, we must 
make technical improvements to the registration and recordation 
systems, while updating the underlying legal incentives. Third, 
we must redesign both the presentation and the usability of our 
public databases and records. Fourth, we must fulfill the 
education and training activities that are expected of the 
office. And, fifth, we must continue to serve the Congress and 
departments in the executive branch through policy expertise as 
required by the Copyright Act.
    Thank you very much, Mr. Chairman. I appreciate the 
subcommittee's interest in the U.S. Copyright Office, and I 
would be happy to answer any questions.
    Mr. Gingrey. Thank you, Ms. Pallante.
    [The statement of Ms. Pallante follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    
    Mr. Gingrey. And, Ms. Shaffer, tell us about Library 
Services.

                STATEMENT OF ROBERTA I. SHAFFER

    Ms. Shaffer. Thank you, Mr. Chairman. I will gladly do 
that.
    Mr. Chairman, Ranking Member Lofgren, subcommittee members, 
thank you for the opportunity to discuss my transition to 
Associate Librarian for Library Services and an overview of my 
unit.
    I am no stranger to the Library. Preparation for my current 
position began over 30 years ago when I first came to the 
Library as a law student. At that point, I resolved that I 
would someday return in a leadership role. Now, as Associate 
Librarian for Library Services, I am humbled by the 
responsibility of the job I have held for just over 100 days 
and always try to harken back to my own experiences as a 
library customer.
    I am grateful to Dr. Billington, Librarian of Congress, for 
his confidence in my leadership abilities, the Library Services 
staff for their support and commitment to the Library, and my 
peer group here for their collegiality. We all work closely 
together with the Librarian and Chief of Staff to provide 
services to the American people, your constituents, and to 
position the Library for its long-term viability.
    Library Services is the largest organizational unit, with a 
staff of approximately 1,500, 40 percent of the total 
headcount, and 42 divisions. It is responsible for the 
Library's vast collections. Four-point-seven million items were 
just added within the year. As well, Library Services selected 
from copyright receipts, one important source of collections, 
more than 700,000 copies of works with a net value of $31 
million.
    Some 11,000 new items from all sources come into the 
Library each day. Library Services acquires materials, 
catalogues them, makes them accessible, and preserves them. 
Staff helps the Library's users navigate these collections. 
They answer questions in person, over the phone, via the 
Internet, mail, virtually all means of inquiry.
    In 2011, we provided reference services directly to more 
than half a million individuals. The high demand for our 
resources is also underscored by the fact that the Library's 
Web site had 512 million page views last year.
    Part of planning for the future is anticipating needs of 
users within the context of a rapidly changing technological 
landscape. As the world's best source of authoritative and 
authentic information, the Library of Congress can be an 
integral part of everyday life wherever and whenever 
information is deployed, except when driving.
    From my perspective, I see a number of challenges before 
us. First, space: finding and properly managing space for our 
constantly expanding collection and format. Second, acquiring 
material that spans the ages and all disciplines in almost all 
languages--over 460 at last count--and collecting from remote 
but strategic regions, where our six overseas offices play a 
critical role. Third, retaining a topflight staff with 
appropriate subject matter, technical, and linguistic expertise 
in sufficient number to meet the ever-growing need for their 
unique knowledge.
    The Library has always operated in a no-frills environment, 
where the love of learning and its mission are our best 
recruitment and retention levers. But we must be able to give 
staff the necessary tools to do the best job possible and to 
keep their knowledge and skills at the cutting edge. Fourth, we 
must be opportunistic when unique materials are made available 
to us and mindful that gaps in knowledge are difficult to fill 
after the fact and even more so in a digital age.
    Finally, we must be able to protect the collections from 
vulnerabilities, including threats from environmental 
degradation caused by improper housing conditions and barriers 
caused by changes in technology. Played any eight-track tapes 
lately?
    Meeting these challenges is crucial to remaining on the 
visionary course Dr. Billington has set for us and the United 
States Congress has encouraged and enabled for over 200 years. 
The idea of the Library of Congress began with Thomas Jefferson 
and our other Founding Fathers, James Madison and John Adams, 
who envisioned even in our Nation's infancy the uniquely 
American concept of a universal collection that embodies the 
Library of Congress as we know it today.
    Thomas Jefferson said, ``There is in fact no subject to 
which a Member of Congress may not have the occasion to 
refer.'' At a time when this concept is increasingly prophetic, 
it would be impossible to sustain for Congress and the Nation 
the knowledge base needed to be creative and competitive in 
this information-driven, globalized century as budget 
reductions affect, but we hope only temporarily, our ability to 
acquire, make available, and preserve our collections.
    Thank you.
    Mr. Gingrey. Ms. Shaffer, thank you.
    [The statement of Ms. Shaffer follows:]

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Gingrey. And I thank all of the witnesses.
    We now have time for committee members to ask questions of 
the witnesses. Each Member is allotted 5 minutes to question 
you. To help us keep track of time, we will also use the timing 
device on the witness table. We will alternate back and forth 
between the majority and minority. And I will begin and 
recognize myself for 5 minutes.
    Excuse me. Ms. Pallante, I think I must have caught the 
same bug that you did. We won't copyright our voices this 
morning.
    Thank you.
    Ms. Lofgren has just given me a good little lozenge, so 
maybe that will help me through.
    And I will ask this question to start, and, Ms. Shaffer, 
with you, since you are warmed up and all ready to go. From 
fiscal year 2011 to fiscal year 2012, the Library of Congress 
absorbed a 6.6 percent budget reduction. I don't have to tell 
you guys that. The Library conducted a voluntary separation 
incentive program to achieve this reduction.
    In this fiscal environment, how is your service doing more 
with less? That is a question for each one of the four of you. 
And have you observed from your position that the budget cuts 
are affecting your ability to produce the quality of work 
required by us, the Congress?
    Ms. Shaffer.
    Ms. Shaffer. I would say that these budget cuts, at least 
at this time, have had the effect of causing us in a very good 
way to collaborate more with each other as well as with 
entities around the country and around the world. And so they 
have enabled us to step into more leadership roles within 
Library of Congress, helping to set standards and work in 
collaborative and cooperative acquisition programs.
    One of the things that we have noticed, however, is that 
the impact could very soon appear in our collections. As I 
mentioned in my testimony, both written and oral, it is very 
difficult, once you are unable to acquire materials, to then 
fill in those gaps. And this is our biggest concern for a 
short-term, hopefully, reduction that could actually have a 
very long-term impact.
    Mr. Gingrey. Ms. Shaffer, thank you.
    Ms. Pallante. Turn on your mike, please.
    Ms. Pallante. We have had a 22.7 reduction over the last 
couple of years and lost about 10 percent of our workforce. So, 
in some ways, that is never a good result. In other ways, 
because I am new and would have undertaken an evaluation 
regardless, the timing is acceptable, in that I need to figure 
out how to plan for the future.
    So we have kept our heads above water, in that we have kept 
the backlog at bay with registrations. What we are not doing is 
effectively maintaining our IT system, which underpins the 
entire electronic registration system. And we are not doing a 
lot of innovative projects that we are expected to do going 
forward.
    Mr. Gingrey. Thank you, Ms. Pallante.
    Dr. Mazanec.
    Dr. Mazanec. First of all, I am committed to maintaining 
the quality of service to Congress.
    We are taking measures to work through the budget cuts. We 
are maintaining our analytical capacity on all the issues by 
asking analysts and attorneys and IPs (information 
professionals) to broaden their portfolios, take on new issues. 
But it does take time to get up to speed on those issues. We 
are also looking to take advantage of technology and to use it 
to create efficiencies and to make our service to Congress as 
effective as what it has been in the past.
    Longer term, we will have to strategically think about how 
we want to reshape the workforce for a 21st-century Congress.
    Mr. Gingrey. Thank you, Dr. Mazanec.
    Mr. Mao.
    Mr. Mao. Thank you.
    As Ms. Shaffer mentioned, the collections are of utmost 
importance to us in the Law Library and Library as a whole. 
And, yes, declining budgets will have an effect on the ability 
for us to acquire materials from around the world. That is one 
of the last places we would look to cut if we had to, because 
it is so important to keep that consistency and maintain the 
collections.
    The difficulty for us has been in retaining staff in 
certain areas. Last year, as part of the retirement program, 
for example, we had a senior specialist covering the area of 
Canadian law for us retire. And in the meantime, we have not 
been able to hire behind him to fill that position. So we have 
been relying on others among our foreign law specialists who 
have similar jurisdiction----
    Mr. Gingrey. Mr. Mao, thank you. I don't mean to cut you 
off, but in my remaining time I did want to ask a question of 
Dr. Mazanec.
    Dr. Mazanec, CRS serves as the research arm of Congress and 
is tasked with providing objective, authoritative, and timely 
research. You state in your written testimony that one of the 
core values of CRS is nonpartisanship.
    Dr. Mazanec. Uh-huh.
    Mr. Gingrey. How do you, as head of CRS, attempt to ensure 
that the analysts are preparing reports that are, to the 
greatest extent possible, objective and free of any bias, any 
partisanship?
    Dr. Mazanec. Thank you for this question.
    CRS takes several steps throughout the preparation of our 
products to ensure objectivity and to be true to our core 
values. At the very start, during the conceptualization phase, 
we involve analysts from across the service so that we get all 
the issues, all the different options identified. We then seek 
out and only use authoritative source material, which we draw 
from the Library. We leverage the Library resources.
    And, finally, we have a very rigorous review process that 
consists of four different levels, starting with peer review, 
then research section review, then division review, and then 
finally agency review. As an additional check, on some reports 
we ask experts outside of CRS to look at near-final text to 
make sure that it is technically accurate.
    We also try to foster a culture of objectivity and balance, 
both in how we train and work with our colleagues but also in 
some of the policies that we have in place.
    Mr. Gingrey. Dr. Mazanec, thank you. I have been a little 
generous with myself there and went over.
    Before I yield to the ranking member, let me tell my 
colleagues, since there are only three of us here--hopefully 
more Members who had conflicts with other committee hearings 
and markups going on simultaneously to this hearing--if we 
don't have any other Members come, we will have a second round. 
So be thinking about that as you frame your questions.
    I now yield to the ranking member, my colleague, Ms. 
Lofgren, for 5 minutes.
    Ms. Lofgren. Thank you, Mr. Chairman.
    Ms. Pallante, according to the information provided to the 
committee by the Library, you took a trip to Los Angeles in 
November of last year, and during that trip you met with motion 
picture studio lawyers. Now, 1 day after you returned from 
L.A., you testified before the House Judiciary Committee about 
the Stop Online Piracy Act and essentially endorsed the bill.
    SOPA was an extreme measure which blindly pursued copyright 
enforcement at the expense of many other considerations. And, 
of course, as we are all aware, the bill sparked massive 
protests from, some have said, 14 million Americans, and the 
bill did not proceed.
    Did you discuss SOPA in your meeting with the motion 
picture studio lawyers? Who attended the meeting? What subjects 
were discussed? What was the substance of the discussion?
    Ms. Pallante. Thank you, Ranking Member.
    Yes, in fact, that trip was cut short because of the 
hearing; I had to return early. I was out there for a bar 
association meeting, and whenever I am out anywhere in any city 
other than Washington, I try to do side meetings to maximize my 
time.
    So, in that case, that was a meeting that we set up--my 
general counsel and my associate register were with me--for the 
purpose of reaching beyond the trade associations that normally 
visit us in Washington. So this is something that I have been 
advised to do in getting advice as a new Register. Make sure 
you meet with the members of associations, not just the 
associations and the government relations people.
    So, in that meeting, we talked primarily about the 
Priorities and Special Projects document----
    Ms. Lofgren. Who attended the meetings?
    Ms. Pallante. There were member company business lawyers 
there. So the lawyers of Warner Brothers, the lawyers of 
Paramount, the lawyers of major studios.
    Ms. Lofgren. Would you provide later--obviously you don't 
recall the names, and that is fine. If you could provide a list 
of all the attendees at that meeting after this hearing, that 
would be helpful.
    Ms. Pallante. Yes, certainly.
    Ms. Lofgren. Now, did you discuss SOPA at that meeting?
    Ms. Pallante. Well, again, we discussed the Priorities and 
Special Projects document and rogue Web sites because it was a 
priority for the leadership of Judiciary as one of the 
priorities that I have had to make my own. And so, yes, in that 
context it would have been one of many things we discussed.
    Ms. Lofgren. In recent remarks published by the American 
Bar Association, you said the following: ``Copyright is for the 
author first and the Nation second,''.
    Now, this comment attracted quite a bit of attention among 
some people, especially my constituents in Silicon Valley. And 
it seems to me, when you look at the Constitution, which 
empowers Congress to grant exclusive rights in creative works 
in order, and I quote, ``to promote the progress of science and 
the useful arts,'' it seems to me the Constitution is very 
clear that copyright does not exist inherently for the author 
but for the benefit of society at large.
    Now, I am concerned when any public official, especially 
one in charge of regulation of a particular industry or area of 
law, seems to favor particular stakeholders in that very 
industry. We would be alarmed, for example, if the Chairman of 
the FCC said the Telecommunications Act was for the telecom 
companies first and the Nation second. And it is not clear to 
me how your statement, if it was accurately reported, is any 
different.
    So could you tell us what you meant by this statement and 
how this principle guides your work as Register?
    Ms. Pallante. I would be delighted to. Thank you.
    So when I took the job, I was required to take an oath to 
uphold the Constitution and the laws of the United States. The 
constitutional clause to promote the progress of science and 
the useful arts, works in part by, ``securing for limited times 
to authors their respective writings and discoveries.''
    What I was doing in that interview--and you have extracted 
one sentence from a four-page interview--was making the point 
that the Supreme Court has interpreted that clause, including 
in two recent decisions, Eldred and Golan in the last year, 
that the limited monopoly goes first to authors so that they 
will produce so that, in the end, the public will benefit.
    Ms. Lofgren. I think that is a real misstatement of the 
Eldred case. The Eldred case basically had to do with the 
jurisdiction of Congress. It didn't find that the benefit was 
to authors instead of society. It basically was a finding that 
Congress was not limited by the words ``for limited periods'' 
for the extreme measure that we have done now, life of the 
author plus 70 years.
    Let me ask you this. According to the information--well, my 
time has expired, Mr. Chairman. I will ask my other questions 
at the second round.
    Mr. Gingrey. I thank the ranking member for yielding back. 
And I will now call on my colleague from Florida, Mr. Nugent, 
for 5 minutes.
    Mr. Nugent. Thank you, Mr. Chairman.
    And I want to thank you all for being here today. What a 
great group that we have, particularly with your background and 
experiences.
    But CRS, obviously, to Members of Congress--I was first 
initiated back as a freshman during that training period. And 
we have reached out to CRS on a number of issues, and we have 
been very satisfied with the response from the Library of 
Congress and CRS in particular.
    But my question to you is, as we move forward, your 
relationship, CRS's relationship with the executive branch, 
have you been receiving all the information that we request in 
a timely manner?
    Dr. Mazanec. The simplest answer is no. In a month's 
period, approximately two to four times we have difficulty 
getting information from executive branch agencies. They either 
refuse to provide us with the information or they give us 
incomplete or out-of-date information. Or they will ask us who 
the information is for and how it is going to be used, and we 
feel that by revealing that to them that would breach our value 
of confidentiality.
    Right now, the current status of our authority is derived 
from the chair of the committee. We are agents of the 
committee, and that is how it has been interpreted. So that 
leaves out the ranking member and the other members of the 
committee and Members in their own right.
    So there is--Representative Schock has a pending bill that 
would give the Director of CRS the authority to seek 
information directly from the executive branch agencies if it 
is to respond to a request from a Member and if the Member 
approves. We think that this would make us better able to serve 
the Congress so that we can continue to provide a 
comprehensive, authoritative product to the Congress.
    Mr. Nugent. I would think that it shouldn't matter what 
Member it is for or who it is for, because you are really 
trying to give an independent, nonpartisan response. And that 
is all I ask for. And I would think, no matter what side, 
whether it is majority or minority, we want to make sure that 
we get authoritative, you know, in regards to a response, so we 
can make decisions as we move forward on legislation. And that 
really is a nonpartisan issue.
    And I know this is Mr. Schock's area, you know, in his 
wheelhouse right now, and he is not here, so I wanted to make 
sure to ask that question. But I would hope that the 
legislation that he is putting forward would receive bipartisan 
support because this is a bipartisan issue. We depend upon 
CRS's objectivity to give us just good, solid information. 
Because we can get information on a partisan side of it, and we 
don't want to necessarily make a decision based upon that. And 
so it really is about CRS's ability.
    The question that was directed to you, Ms. Pallante, it is 
sort of like the chicken and the egg. And my take on it is that 
if authors or folks that provide a document or an idea and put 
it in writing, they want to make sure that there is some 
protection out there for them. Because if it wasn't for that, 
all of us, we wouldn't receive the information. It is possible 
they could do something different to keep it secretive, but we 
want it to be public knowledge.
    So is that kind of where you were leading in regards to 
trying to keep authors and those that--you know, freedom of 
getting that out there and protection for them?
    Ms. Pallante. Absolutely. And I think in terms of copyright 
owners, you know, they are not a monolith, right? You have 
individual creators--the authors, songwriters, artists. And 
then you have big multinational companies who may also acquire 
copyrights. So in the context of the interview that I was 
questioned about, I was talking about authors and how not to 
lose them in the system. And I do believe that that is an 
important point for the Register of Copyrights to keep in mind.
    Mr. Nugent. I would think so, so we all have the ability to 
read particular information.
    So I want to thank all of you for being here today, and I 
will yield back the balance of my time.
    Mr. Gingrey. Mr. Nugent, thank you.
    You know, we have time for a second round, so why don't we 
go ahead and get started on that. And let me ask the first 
question of the second round in my 5 minutes allotted to Mr. 
Mao of the Law Library.
    The Law Library, Mr. Mao, appears to be utilized more by 
the other two branches of government than by the Congress. Of 
all those who utilize the Law Library, what community is the 
greatest user?
    Mr. Mao. It depends on the type of questions we receive. 
For the analytical and legal analysis provided by the foreign 
law specialists, when we serve the government, it is 
approximately one-third to the Congress--I am sorry, one-third 
to one-half to Congress and one-third to one-half to the 
executive branch, with a small minority of that remaining part 
to the judicial branch.
    Now, for the general reference questions that we receive in 
the Reading Room, a majority of those are for the public. We 
get a lot of questions, whether they be walkup, through the 
telephone, or through electronic means. And we serve the public 
here in Washington, D.C., across the country, and around the 
world.
    Mr. Gingrey. So the majority of inquiries are from the 
general public?
    Mr. Mao. From those that are given to the Reading Room, 
yes.
    Mr. Gingrey. All right.
    Ms. Shaffer, the Technology Policy Directorate of the 
Library is housed within Library Services, right?
    Ms. Shaffer. It is.
    Mr. Gingrey. In 2010, the LOC acquired the rights to the 
entire Twitter archive. Do you feel like it is necessary to 
archive all Twitter traffic? And are you concerned that these 
limited resources that we have been talking about will be 
diverted to this archive that could be better used elsewhere?
    Ms. Shaffer. Mr. Chairman, yes, I do. And I feel rather 
strongly that social media is an emerging media that we need to 
pay attention to. I believe that if we had forgotten about 
motion picture at the turn of the 20th century, we would deeply 
regret it today. And I don't want us to be in a position or our 
legacy to be considered that we totally did not think about 
important resources.
    In Twitter, there are enormous social trends that can be 
mined out that, frankly, might not be derived from any other 
resources. And so I think it would be highly irresponsible for 
the Nation's library not to look at social media sources, data 
sets, and emerging new fields of knowledge.
    Mr. Gingrey. Well, thank you for that honest and forthright 
answer. It just seems to me that making sure that we preserve 
``Mr. Smith Goes to Washington'' rather than a bunch of Twitter 
gossip by teenagers is--you are not comparing apples to apples 
there. And if you want to comment on that, I will give you a 
little more time to respond to my opinion on the issue.
    Ms. Shaffer. Well, it may be very important as a social 
trend to know what teenagers were speaking about. We are always 
concerned about the knowledge base in America, and it may help 
us understand better things about civic education or preparing 
for a future generation of voters.
    So I do believe that these are important resources not to 
be excluded and----
    Mr. Gingrey. Thank you very much.
    Let me go to Ms. Pallante. The registration system is 
integral to the Copyright Office, is it not?
    Ms. Pallante. It is.
    Mr. Gingrey. Right now, around 87 percent of the claims are 
done electronically. Do you feel prepared to adapt to an 
increase in electronic claims? And have you taken steps to 
prepare for an increase in electronic claims?
    Ms. Pallante. Thank you for the question.
    Yes and no. So the answer is, yes, we have taken steps to 
prepare, but we do not believe that we are in shape to have the 
kind of technology and services that the copyright community 
expects of us.
    So, for example, we can register what comes in. We are not 
sure the legal incentives for registration have kept pace with 
the law, meaning that we are not sure people are sure why they 
are registering anymore. If people don't register, the public 
databases won't be robust, and then the public and users and 
those who rely on the information won't have the information 
that they need.
    And the databases need major upgrades in searchability, 
including through the Web, and the presentation of material 
that people want.
    Mr. Gingrey. Ms. Pallante, thank you.
    Dr. Mazanec, in my remaining few seconds, almost 90 
percent--you talked about this, actually, in the 5 minutes that 
you gave us of your written testimony--almost 90 percent of 
your budget is directed toward personnel. Recently, you have 
not filled several vacancies and had 22 others leave through 
this voluntary buyout program.
    CRS is currently operating at its lowest staff level in 
more than 3 decades. In fact, I think those were your words. 
How would you enact further reductions, given the already low 
staff level, if that be necessary in these tough times?
    Dr. Mazanec. That is a very good question.
    I think at this point what we are asking--as I said, what 
we are asking staff to do is take on additional issues and 
responsibilities. But we can only expand portfolios so far.
    I think the next, or one of the things we will have to 
consider is our breadth of services and which services or how 
can we prioritize our services to make sure that Congress gets 
what they need or what is most valuable to them. And that is 
one of the reasons why I have been going around and speaking 
with Members and senior staff.
    We are also looking at our operations, looking for----
    Mr. Gingrey. Well, let me--and my time has expired. Just 
real quickly, just getting back to the personnel issue, do you 
think you can continue in this environment with the current 
level of personnel, and thinking maybe for the next couple or 3 
years that it is not going to get any better, that we can still 
get the quality of work out of CRS that we have become 
accustomed to, certainly in the 9 years that I have been here?
    Dr. Mazanec. I think we can. Now, I want to caveat that by 
the fact that it really depends on the issues that we are being 
asked to work on. And as the issues get more and more complex, 
we may need additional analytical capacity or we may need to 
hire people that have specific expertise that we need.
    Mr. Gingrey. Thank you all.
    And I thank my colleagues for indulging me with a little 
bit of overtime there.
    Let me turn to the ranking member, Ms. Lofgren, for her 
second round of 5 minutes.
    Ms. Lofgren. Thank you, Mr. Chairman.
    Ms. Pallante, according to the information provided to the 
committee, you had a meeting with the Authors Guild and the 
Association of American Publishers in New York between December 
7th and December 9th of last year. Can you tell me who attended 
that meeting? What was the substance of the discussion? And was 
SOPA a topic of the meeting?
    Ms. Pallante. Yes, thank you.
    I remember the trip, because my family came up to join me 
in New York, and we went to the Empire State Building at 
midnight on Saturday night, and Representative Goodlatte was 
there with his family. And my children said, ``I can't believe 
we can't even go to the Empire State Building without you 
running into people you work with.''
    At that meeting, I had been asked by the Publishers' 
Lawyers Committee, the in-house counsel for lawyers, people who 
work every day in copyright transactions and litigation, to 
come and speak. And, again, whenever I take a trip, I try to do 
additional meetings to maximize my time. And so I met again 
with the businesspeople who are in the Association of American 
Publishers, so not the lawyers but the CEOs and businesspeople, 
to talk again about the priorities of the Copyright Office. 
Then went and met with the Authors Guild, again, just to go 
over my priorities and special documents.
    Ms. Lofgren. And was SOPA a subject of the discussion?
    Ms. Pallante. SOPA and PIPA were introduced at that point, 
so it would have been discussed in those terms. But in general, 
rogue Web sites have been a topic for the Copyright Office for 
a year.
    Ms. Lofgren. Let me ask you to do this. You haven't 
mentioned the names of the people you met with. So let me ask 
you, in addition to the names of the people you met with in 
Hollywood, that you provide the names of the people you met 
with in New York. And if you could, please, a summary of the 
topics discussed at each meeting.
    Ms. Pallante. Yes.
    Ms. Lofgren. You know, like you, I love books, I love 
reading. But I am also mindful that technological changes are 
evolving the dominant forms of creative work throughout--they 
have throughout our history, and they certainly are today.
    In recent remarks to the American Association of 
Publishers, you said that--and I assume this is correctly 
quoted--you cannot imagine the future without books and without 
publishers.
    Now, do you believe that the preservation of a particular 
form of copyright works or a particular industry business model 
is part of your mission as the Register of Copyrights? And if 
not, what did you mean by that comment?
    Ms. Pallante. Thank you. I was not discussing a particular 
format of books; I was talking about books. And in that speech 
I had been asked to trace the history of copyright through 
books. It was the annual meeting of the members of the 
Association of American Publishers. And so I traced it from the 
time of the first Copyright Act in 1790 to the Golan decision, 
in which Justice Ginsburg repeated that her decision was based, 
in fact, on the Framers' intent that dissemination of works was 
part of the copyright bundle. That was the point of my remarks.
    Ms. Lofgren. Let me ask all of the witnesses about 
discrimination. We are aware, we have seen in the newspaper of 
an allegation of an individual who asserts that he was fired 
because of his sexual orientation. Now, I won't get into that 
particular case because it is being investigated.
    But we have no tolerance here for discrimination in 
employment in violation of our laws. So I would like to know, 
what are each of you doing to make sure that the employees 
within your purview are not discriminated against based on 
race, religion, gender, or sexual orientation?
    We will start with you, Mr. Mao.
    Mr. Mao. Thank you.
    The Law Library of Congress and, indeed, the Library of 
Congress believes very firmly that there should not be any 
discrimination and believes in its mission to provide an 
environment where there is no discrimination.
    Now, specifically in the Law Library, one thing that I have 
done since taking on the position of Law Librarian is to ensure 
proper training for the staff. So I have encouraged the staff 
to participate in the classes that are available through the 
Library of Congress. And, indeed, at one of the first 
management team meetings I held in the Law Library, I invited 
representatives from our Office of Opportunity, Inclusiveness, 
and Compliance to come and brief our staff about the issue. And 
we are planning on making that session available to the staff, 
as well. And----
    Ms. Lofgren. Thank you.
    Dr. Mazanec.
    And, all of you, if you could be brief, that be would be 
good because I am running out of time.
    Dr. Mazanec. Very specifically, we try to address any 
issues around discrimination as rapidly as we can. We also try 
to educate our employees about workplace discrimination and 
also educate our managers. Diversity is highly valued at the 
Library. It makes us do our job better.
    Ms. Pallante. I would just repeat everything that my 
colleagues have said. I have also instituted supervisory 
training. And I have an open-door policy, which my staff have 
taken advantage of.
    Ms. Shaffer. And I guess I will add a fourth voice to all 
of that. But I will also say that I think it is important that 
our collections are so diverse. And they reflect such diverse 
cultures that, in a sense, we have the environmental 
underpinning for diversity there.
    Ms. Lofgren. Thank you, Mr. Chairman. My time has expired.
    Mr. Gingrey. Thank you, Ms. Lofgren.
    Second round for 5 minutes for Mr. Nugent.
    Mr. Nugent. Dr. Mazanec, you had mentioned that you 
forecast. I would like to hear more about how you forecast in 
regards to the needs of Congress and how do you get that----
    Dr. Mazanec. I think you are referring to our legislative 
planning process.
    Mr. Nugent. Right.
    Dr. Mazanec. We do this on an annual basis. We rely on our 
analysts and attorneys who have been working with the 
committees and with congressional staff to help identify the 
issues that Congress will be focused on in the upcoming 
session. We then vet that list with leadership offices and with 
our oversight offices to make sure that we have captured all 
the issues, that we haven't missed anything.
    So that is how we start our planning process for our 
research materials, the products, and the services that we 
provide.
    Mr. Nugent. Does that translate into how many folks you are 
going to wind up putting in a particular area based upon the 
complexity of the issue, or----
    Dr. Mazanec. We try do that to the best of our ability, but 
people come in with specific expertise, so they can't always 
move very easily from one issue area to another issue area. And 
some of the expertise has been developed over decades.
    But we are looking at creating more surge capacity, more 
cross-coverage, so that we can supplement the lead analysts in 
a given issue area that is really hot.
    Mr. Nugent. And this is to all of you. You know, given the 
cutbacks that you have all faced in regards to personnel and 
retirements, how are you growing leaders within specific areas?
    And, you know, Mr. Mao, I don't know that you have a second 
in command at this point in time, but how are you going to grow 
leaders, particularly in this austere budget time? Yes, sir.
    Mr. Mao. We have various training programs available. One 
of the ones that we have started is, for example, in our 
Reading Room. We have what we are calling our Reading Room 
Management Training Fellowship, where we are encouraging the 
Reading Room staff to gain supervisory experience.
    We have also encouraged our members to take details. For 
example, we have one member of the Law Library staff who is 
working with the House Appropriations Committee currently on a 
detail to gain supervisory experience in a context outside of 
the Library but still related to the Library.
    Mr. Nugent. Dr. Mazanec.
    Dr. Mazanec. Very quickly, I would echo all of that. We 
also have some recruitment programs where we target bright, 
young individuals coming out of school--the law recruit, grad 
recruit, and the PMF program, the Presidential Management 
Fellows program. We bring them on board, educate them, train 
them, give them opportunities to develop their skills.
    Mr. Nugent. Ms. Pallante.
    Ms. Pallante. And I have a lot of cross-departmental 
projects at the moment and am using those to identify leaders. 
And I have actually had several people retire after many 
decades at the Copyright Office, and so younger people will be 
stepping up to fill those jobs.
    Mr. Nugent. Thank you.
    Ms. Shaffer.
    Ms. Shaffer. We are doing a lot of what our colleagues are 
doing in Library Services, but we are also creating now a very 
robust mentoring and coaching program within the service unit.
    And then we are reaching out to colleges and universities 
all over the country to help us identify people who are 
graduating from college and might be interested or have 
knowledge of cultures and language skills, because that is a 
critical issue for Library Services.
    Mr. Nugent. One more question. As it relates to the 
Legislative Information System, which it is now in its 16th 
year of existence, and THOMAS, which has been around now 18 
years, how do they fit within Library of Congress information 
architecture strategies as you move forward? Is there talk 
about merging the two, or is there some other way?
    Mr. Mao.
    Mr. Mao. Yes, the data underneath is essentially the same. 
And right now the Library of Congress is working very hard on 
updating the information architecture for the THOMAS system and 
is looking forward to launching a new system that will 
integrate all of this information in one place.
    Mr. Nugent. Very good.
    Dr. Mazanec. I don't have anything to add except that CRS 
has been actively involved in collaborating with the other 
service units to modernize our Legislative Information System.
    Mr. Nugent. I would think that would definitely be the way 
forward, particularly in these times where we have lost 
personnel. Any time we can collect information and then 
disseminate it in a way that is useful would be great.
    I yield back the balance of my time.
    Mr. Gingrey. Thank you, Mr. Nugent.
    And I will now yield to the gentleman from Indiana. And 
this is his first round. So, Todd, you can go beyond the 5 
minutes and take up to 10, if you wish.
    Mr. Rokita. Oh, my.
    Mr. Gingrey. Mr. Rokita from Indiana.
    Mr. Rokita. It is wonderful to be on House Admin and be 
treated this way.
    My apologies for being late, with multiple hearings today 
that I was scheduled to attend. I thank the witnesses for their 
testimony, and my apologies for not being able to hear it all.
    If I ask a question that has already been addressed by 
another Member, would you please tell me so I can move on? And 
I will go back to the transcript to get that answer. That 
requires a two-way street, right? You have to think of that as 
if being answered in my mind, not yours. But I think we can 
accomplish that today.
    First, to Ms. Pallante, do the Library's costs to process a 
claim vary depending upon the type of work?
    Ms. Pallante. Oh, that is a great question. Meaning does it 
cost more to register a motion picture than it does a song, for 
example?
    Mr. Rokita. Yeah, a book versus a movie or a piece of 
software or something like that.
    Ms. Pallante. Yes. So that is one of the focal points of a 
fee study that we are undertaking right now----
    Mr. Rokita. Okay.
    Ms. Pallante [continuing]. Which is something that I am in 
the middle of in my first year as Register. I would suspect the 
answer is yes.
    Mr. Rokita. And when is that fee report going to be due 
then, or that analysis going to be done?
    Ms. Pallante. It will be done and delivered to Congress 
this summer.
    Mr. Rokita. Okay.
    Ms. Pallante. And then if Congress approves, it would be 
implemented in fiscal 2013.
    Mr. Rokita. Okay. Thank you.
    Ms. Pallante. You are welcome.
    Mr. Rokita. Another question. According to your recent fee 
report notice, in fiscal year 2011 fee receipts covered 59 
percent of the costs. You said this was insufficient by any 
standard. Certainly, it would be in the private sector. What 
standard would be sufficient?
    Ms. Pallante. Again, that is a really good question. As I 
understand it, the office fees for services have never covered 
the entire cost. And, in part, that is because, at least in 
recent decades, copyright registration is a voluntary system, 
meaning that as an author or as a motion picture company you 
don't have to register to get legal protection under copyright 
law. It is automatic.
    There are benefits, and we try to entice people to 
register, but we do that because the public database is 
actually good for other industries who may rely on that 
information for innovation and for the public who needs to find 
a copyright owner.
    So it is a little bit of a circle, and we have to hit the 
sweet spot, essentially, with the fee study. But I do believe 
that we have not been recovering enough of the fees for 
services.
    Mr. Rokita. And just so I am clear, do you have a solution 
for that or not? You are saying no. Is there a--I can't believe 
I am asking you this. Do you think there would be a legislative 
solution to that?
    Ms. Pallante. Well, I rely on the law when I do the fee 
study. I have parameters that are set in the Copyright Act. And 
they require that I be fair and equitable and give due 
consideration to the objectives of the copyright system, which 
in the discussion that you missed is that in part the copyright 
system is for authors and in part it is for the public.
    So we need to take all of that into account. And, 
therefore, I think one answer is, we probably will never be 100 
percent fee recovery, but we need to do better.
    Mr. Rokita. Okay. I will look at the transcript, as well. 
Thank you.
    According to I think that same fee report notice, you 
recovered 64 percent of the cost to process an online claim but 
only 58 percent of the cost to process paper applications. So 
with adoption of a new fee structure, what percentage of the 
costs are you anticipating recovering in both those categories?
    Ms. Pallante. I am hesitant to give you an answer only 
because we are in the middle of a public fee Federal Register 
process, and I have to wait for the results of that before we 
do the final analysis for Congress. So I don't want to prejudge 
what the public's comments are going to be in terms of what the 
right result should be.
    Mr. Rokita. That would imply that you actually weight the 
comments----
    Ms. Pallante. Yes.
    Mr. Rokita [continuing]. Which is something that----
    Ms. Pallante. I actually read them and analyze them and----
    Mr. Rokita. Wow.
    Ms. Pallante [continuing]. Incorporate them.
    Mr. Rokita. I don't mean to be flippant, but I am finding--
and this comes from a guy who used to run a couple agencies in 
the State of Indiana at one time. When I ask other agency heads 
or decision-makers about their formula or their process for 
analyzing comments, they don't have one. Which you can come 
back and say, ``Well, that is our discretion under the 
Constitution,'' but I think that is an insufficient answer. So 
I appreciate that non-answer you gave me.
    What planning--I am trying not to just pick on you, but I 
think this will be the last one for you--what planning has the 
Copyright Office engaged in in the event the copyright royalty 
judges are deemed unconstitutional? Something I am just 
learning about. Do you have a plan? What if these judges are 
found unconstitutional?
    Ms. Pallante. Well, I don't have plan, but there would be 
implications for the Register for sure.
    Mr. Rokita. Yeah. Well, do you think you need to start 
thinking of one, or are you pretty confident that they are 
constitutional? And if so, why?
    Ms. Pallante. Well, I know the Department of Justice is 
representing the Library in that ongoing litigation. And I 
probably shouldn't comment on pending litigation.
    Mr. Rokita. Anyone else want to comment? No? Okay.
    Ms. Shaffer, currently, 17 studio and movie-related 
entities store materials at the Library's National Audiovisual 
Conservation Center in Culpeper. You are familiar, obviously.
    Assuming the center had authority to charge depositors for 
cost recovery storage and preservation fees, what do you 
envision for the center? Are there other institutions who have 
offered to collaborate? Is there available space if more 
entities want to establish a relationship with Culpeper?
    Ms. Shaffer. Well, let me start by saying that we would be 
able to create the space. We don't currently have it, but we 
have some fixed shelving in Culpeper, and our plan for this 
deposit program would be to install compact shelving, movable 
shelving. So that would create a significant increase in our 
available space. We have----
    Mr. Rokita. Are you promoting this relationship 
opportunity?
    Ms. Shaffer. We are trying to. We have a number of 
registries that you created for us. And we have spoken to 
people who participate in the deliberations on those 
registries. Often they are connected to or coming from 
industry. And so we have been trying to explain to them what 
our plan is in a very objective way, thinking that this will 
provide service not only to them but also assure the longevity 
and preservation of many of the materials that they possess and 
really don't have the technical ability to handle. I think that 
is the key issue.
    Mr. Rokita. Well, and just so I am clear on your answer, if 
you had the authority to charge depositors for cost recovery, 
how would you handle that?
    Ms. Shaffer. Well, we would use it as--we would institute 
it under a revolving fund so that we could then use the monies 
that we would collect to improve the preservation and 
conditions of the materials that we would be taking in.
    Mr. Rokita. A hundred percent?
    Ms. Shaffer. Yes, I believe it would be. We would include 
in that, however, a number of staff positions so that they 
could be dedicated to preserving these materials as well as 
developing scientific know-how for all other materials.
    Mr. Rokita. Have you thought about fee structure and fees 
and percentages of recovery, that kind of thing?
    Ms. Shaffer. We are actually right now in the process of 
looking at what the marketplace might bear. And we expect to 
have that, again, by the summer. So we are looking at it as we 
speak.
    Mr. Rokita. I would expect the marketplace would bear a 
lot.
    Ms. Shaffer. Well, it would be cost recovery, so----
    Mr. Rokita. I am not asking you to profit, but getting to 
100 percent would be nice, or closer to.
    Ms. Shaffer. Oh, it would be lovely, for sure.
    Mr. Rokita. All right. Thank you very much.
    I yield back.
    Mr. Gingrey. Thank you, Mr. Rokita.
    Let me say to our witnesses, first of all, thank you. I 
want to thank each and every one of you. And I thank the 
Members, as well. Ms. Lofgren had a conflicting markup, so she 
had to leave a few minutes early.
    Before I adjourn the committee, though, let me just say 
that it is possible the committee members, maybe even some that 
couldn't attend at all, they may have some follow-up questions 
for the witnesses. And would you all please respond to these 
written questions, assuming there are some, in a timely manner? 
The committee members would greatly appreciate that.
    Mr. Gingrey. But I do thank each and every one of you. The 
positions that you hold--four of, what is it, seven or nine? 
But you represent 40 percent or more of the budget for the 
Library of Congress. And certainly we, the Members, understand 
the importance and do realize the constraints that you are 
under and are very likely to continue to be under in regard to 
being able to provide the same level of service with fewer 
people and with a tightened budget. I know that is very, very 
difficult for each and every one of you.
    And what you do is hugely important. And I think that was 
pointed out pretty clearly during the hearing in your testimony 
and the Q&A, two rounds of Q&A. So I feel, as chairman of the 
Subcommittee of Oversight and Investigation, that we certainly 
have had a very good hearing in regard to the Library of 
Congress. And, again, thank you all.
    At this point, I will declare that this hearing is 
adjourned. Thank you.
    [Whereupon, at 11:29 a.m., the subcommittee was adjourned.]


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


</pre></body></html>
